  Report No. D-2007-061     March 1, 2007




Defense Finance and Accounting Service Dayton
         Network Compliance with the
             Prompt Payment Act
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CFR                   Code of Federal Regulations
DFAS                  Defense Finance and Accounting Service
EDM                   Electronic Document Management
IAPS                  Integrated Accounts Payable System
                Department of Defense Office of Inspector General
Report No. D-2007-061                                                      March 1, 2007
   (Project No. D2006-D000FJ-0178.00)

         Defense Finance and Accounting Service Dayton Network
                Compliance with the Prompt Payment Act

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for processing
payments in accordance with the Prompt Payment Act should read this report. It
discusses internal controls that ensure payments are made on time and that appropriate
interest is paid.

Background. On October 3, 2005, the Defense Hotline received a complaint that the
Defense Finance and Accounting Service (DFAS) offices in Dayton, Omaha, San
Bernardino, and Orlando were not paying invoices in accordance with the Prompt
Payment Act. The complainant alleged that in certain instances the DFAS offices were
not properly calculating the payment due date for payments.

The Prompt Payment Act of 1998, section 3903, title 31, United States Code, requires
Federal agencies to pay bills on a timely basis and to pay interest penalties when
payments are made late.

This report uses the term DFAS Dayton Network to collectively refer to the DFAS
payment offices located in Dayton, Omaha, Orlando, and San Bernardino. DFAS Dayton
Network records indicated that its Vendor Pay Product Line paid about $7.6 billion to
contractors from April 2005 through March 2006.

Results. We substantiated the allegation that the DFAS Dayton Network did not always
pay invoices in accordance with the Prompt Payment Act. For 61 of the 75 invoices in
our judgmental sample, the offices in the DFAS Dayton Network did not use the proper
payment information, including the receipt date and the proper payment terms that are
required by the Prompt Payment Act. As a result, the DFAS Dayton Network offices
made $91,673 of interest errors on 42 of those 61 sample invoices. The errors were
related to interest lost when DFAS Dayton Network made payments earlier than
allowable by the Prompt Payment Act and when it overpaid or underpaid the interest due
to the contractor for the late payment. There is an additional risk that DFAS Dayton
Network will continue to overpay and underpay interest to contractors and will continue
to pay invoices earlier than allowable under the Act, which can result in further interest
lost to the Government. Responsibility for the Vendor Pay Product Line is being
transferred to DFAS Columbus and DFAS Limestone in 2008 as part of the Base
Realignment and Closure study. To comply with the Prompt Payment Act, those offices
needed to provide training to their personnel and needed to create detailed formal
guidance for technicians to ensure that they comply with the Prompt Payment Act. See
the Finding section of the report for the detailed recommendations.
The DFAS Dayton Network’s internal controls were not adequate. We identified
material management control weakness in the processing of payments in compliance with
the Prompt Payment Act.

Management Comments and Audit Response. The Director, Corporate Reporting
Standards and Compliance, Defense Finance and Accounting Service Indianapolis
concurred and planned to update the Integrated Accounts Payable System (IAPS) Student
Guide to incorporate the Database Extension and Restructure changes and ensure that the
Student Guide is available to all paying offices that process IAPS payments. In addition,
the Director planned to provide training to all incoming personnel and personnel
recommended for training by management. In general, the comments were responsive;
however, we request that the Director, Corporate Reporting Standards and Compliance,
Defense Finance and Accounting Service Indianapolis provide additional comments
regarding his proposed actions to update the Student Guide to include adequate
instructions for processing and returning IAPS invoices and to provide training to IAPS
technicians and certifying officers. We request that the Director, Corporate Reporting
Standards and Compliance, Defense Finance and Accounting Service Indianapolis
provide comments on the final report by April 2, 2007. See the Finding section of the
report for a discussion of management comments and Management Comments section of
the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             1

Review of Internal Controls                                            1

Finding
     Integrated Accounts Payable System Prompt Payment Act Controls    2

Appendixes
     A. Scope and Methodology                                         15
     B. Report Distribution                                           17


Management Comments
     Defense Finance and Accounting Service Indianapolis              19
Background
     On October 3, 2005, the Defense Hotline received a complaint that the Defense
     Finance and Accounting Service (DFAS) offices in Dayton, Ohio; Omaha,
     Nebraska; San Bernardino, California; and Orlando, Florida, were not paying
     invoices in accordance with the Prompt Payment Act. The Complaint alleged that
     in certain instances those DFAS offices were not properly calculating the
     payment due date for invoices.

     The Prompt Payment Act (the Act) of 1998, section 3903, title 31, United States
     Code, requires Federal agencies to pay bills on a timely basis and to pay interest
     penalties when payments are made late.

     This report uses the term DFAS Dayton Network to refer to the DFAS payment
     offices located in Dayton, Omaha, Orlando, and San Bernardino. DFAS Dayton
     Network records indicated that it paid about $7.6 billion to contractors from
     April 2005 through March 2006 that was subject to the Act.

     The 2005 Base Realignment and Closure resulted in DFAS Dayton, Omaha,
     Orlando, and San Bernardino closing by early 2008. As a result, in June 2006,
     the DFAS Dayton database was realigned to DFAS Columbus and DFAS
     Limestone, with each DFAS location assuming responsibility for portions of the
     database.

     When the Dayton, Omaha, Orlando, and San Bernardino centers close, the
     workload will transfer to either DFAS Columbus or DFAS Limestone based on
     the customer these locations support.


Objectives
     Our audit objective was to evaluate whether DFAS offices located in Dayton,
     Omaha, Orlando, and San Bernardino were making payments to contractors in
     accordance with the Prompt Payment Act. See Appendix A for a discussion of
     the scope and methodology.


Review of Internal Controls
     We identified a material internal control weakness for the DFAS Dayton Network
     as identified by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
     Program Procedures,” January 4, 2006. The DFAS Dayton Network did not have
     proper and adequate guidance and training for processing invoices in compliance
     with the Act. Implementing the recommendations will improve the DFAS Dayton
     Network compliance with the Act. A copy of the report will be provided to the
     senior officials responsible for internal controls in the DFAS Dayton Network.




                                          1
           Integrated Accounts Payable System
           Prompt Payment Act Controls
           We substantiated the allegation that the DFAS Dayton Network did not
           always pay invoices in accordance with the Prompt Payment Act. For
           61 of the 75 invoices in our judgmental sample, the offices in the DFAS
           Dayton Network did not use the proper payment date (such as receipt
           date) or the proper payment terms that were required by the Act. The
           noncompliance occurred because the DFAS Dayton Network did not
           provide necessary formal training to all employees who needed it and, in
           certain instances, adequate detailed written procedures did not exist. As a
           result, the DFAS Dayton Network offices made $91,673 of interest errors
           on 42 of those 61 sample invoices. The errors were related to interest lost
           when DFAS Dayton Network made payments earlier than allowable by
           the Act and when it overpaid or underpaid the interest due to the
           contractor for the late payment. There is an additional risk that DFAS
           Dayton Network will continue to overpay and underpay interest to
           contractors and will continue to pay invoices earlier than allowable under
           the Act, which can result in further interest lost to the Government.
           Responsibility for the Vendor Pay Product Line is being transferred to
           DFAS Columbus and DFAS Limestone in 2008 as part of the Base
           Realignment and Closure study. To comply with the Act, those offices
           need to provide training to their personnel and need to create detailed
           formal guidance for technicians.


Workings of the DFAS Dayton Network Payment Operation
    Using Integrated Accounts Payable System. The DFAS Dayton Network used
    the Integrated Accounts Payable System (IAPS), an automated commercial pay
    system, to account for and process payments submitted to commercial vendors.
    For all invoices DFAS Dayton Network receives, IAPS automatically calculates
    the payment due date based on contract terms entered by technicians. The system
    also schedules the payment date, calculates any interest penalty due to the
    contractor, and processes the final payment data. IAPS electronically sends the
    payment processing data, including any interest penalties due, to the disbursing
    office for payment of the invoice.

    Each DFAS Dayton Network center had three primary sections that are involved
    in making invoice payments: the Tier II, Accounts Payable, and Certification
    sections. Tier II was responsible for scanning, indexing, and properly routing
    documents through the Electronic Document Management (EDM) system.
    Accounts Payable was responsible for manually entering all obligation, invoice,
    and receiving report information into IAPS. Accounts Payable was also
    responsible for forwarding the EDM documents to Certification when an invoice
    is ready for payment. Certification was responsible for reviewing and certifying
    payments and forwarding them to Disbursing.




                                        2
          Universe of Invoice Payments. DFAS Dayton Network paid 120,660 invoices
          totaling $7.6 billion from April 1, 2005, through March 31, 2006. According to
          DFAS Dayton Network, all of the invoices were subject to the provisions of the
          Act and were processed through IAPS. The IAPS database contained payment
          records with the contract number, invoice number, invoice receipt date, payment
          date, contractor name, and payment amount. DFAS Dayton Network maintained
          data fields indicating whether they earned a discount or paid interest on the
          invoice.

          Universe of Improper Invoices. DFAS Dayton Network also provided a
          spreadsheet of 32,495 invoices that they stated had been returned to either the
          buying activity or the contractor from April 1, 2005, through March 31, 2006.
          DFAS Dayton Network provided the contract number, date the invoice was
          scanned into the EDM system, and the date it was sent back. DFAS Dayton
          Network ran a report in EDM to obtain the spreadsheet listing all documents it
          coded as “RTV” (returned to vendor).

          Of the 32,495 returned invoices, 27,241 were subject to the Act. The remaining
          5,254 invoices were not subject to the Act because the payments were primarily
          for items such as moving expenses or grants.

          Audit Sample. We selected a judgmental sample of 75 invoice payments,
          totaling $370 million, of the 120,660 invoice payments. The judgmental sample
          represented 5 percent of the total disbursements and less than .01 percent of the
          total invoices. We primarily selected high-dollar invoices for review. In
          selecting the sample, we ensured an even distribution of payments made before,
          during, and after the standard required payment period (that is, 25 invoices paid
          less than 23 days after the invoice receipt date, between the 23rd and 30th day,
          and after the 30th day). We also ensured that 30 invoices that DFAS Dayton
          Network included on the “RTV” spreadsheet of invoices returned to the buying
          activity or contractor as improper were included in our 75 sample invoice
          payments.

          DFAS Policies and Procedures. DFAS Denver has developed a policy guide for
          IAPS users called the Vendor Payment Desktop Guide. DFAS Columbus has
          developed the IAPS Guide (a training guide). 1 Both of these guides provide
          instructions on how to enter data into IAPS. In addition, DFAS Denver
          Instruction 7077.7-M provides a description of IAPS codes.


Compliance with Requirements of the Prompt Payment Act
          The DFAS Dayton Network did not comply with certain elements of the Prompt
          Payment Act. Specifically, the DFAS Dayton Network did not always select the
          receipt date or the payment terms specified by the Act. In addition, the DFAS
          Dayton Network did not always properly calculate the payment due date or

1
    The IAPS Guide was not available for use by the DFAS Dayton Network for the invoices reviewed. We
    reviewed the manual to determine whether it included detailed procedures to process invoices in
    accordance with the Act.



                                                   3
interest as required by the Act. Also, the DFAS Dayton Network did not follow
DFAS Denver policy related to controls over the handling of improper invoices.
Often errors occurred on the same invoice and the total number of errors that
occurred was more than the 75 sample invoice payments. The table shows a
summary of the errors.



                                    Result of Testing

                                                                Number of Invoices
      Category                                                         with Error*

      No Errors Detected                                                             14
      Used Incorrect Payment                                                         34
        Terms
      Improperly Determined                                                          33
        Invoice Receipt and
        Acceptance Dates
      Did Not Factor in Return of                                                    18
        Invoice when
        Calculating the Due Date
      Inconsistent Work on                                                           37
        Returning Improper
        Invoices

      *Some invoices had multiple errors. Therefore, the total number of errors is
      higher than the sample size.


Payment Terms. According to the Prompt Payment Act, 31 U.S.C. 3903 (a) (1)
the required payment terms are (a) the date payment is due under the contract for
the item of property or service provided, or (b) 30 days after a proper invoice for
the amount due is received if a specific payment date is not established by
contract. The DFAS Dayton Network personnel used incorrect payment terms for
34 of the 75 sample invoices.

       Payment Due Date. DFAS Dayton Network personnel processed
21 sample IAPS invoices that had IAPS payment due dates of less than 30 days
even though the contract terms listed either 30 days or were silent on the payment
terms. For 7 of the 21 invoices, DFAS Dayton Network used payment terms of
14 days without adequate support. For two other invoices, DFAS Dayton
Network used 3 and 5 days as the payment due date. These had annotations that
the invoices had previously been returned to the buying activity and that payment
should occur as quickly as possible. For the remaining 12 invoices, DFAS
Dayton Network selected the payment terms listed on the front of the contract in
the box titled “Discount for Prompt Payment.” However, the Federal Acquisition
Regulation clauses in the body of the contract specify that the payment due date is
30 days, which takes precedence over the payment terms on the front of the
contract. An incorrect payment due date could result in either an early payment



                                         4
           to the contractor (and subsequent interest lost to the Government), an
           overpayment, or an underpayment of interest to the contractor.

           For 16 of the 21 invoices, DFAS Dayton Network had entered the “Prompt
           Payment Indicator” code in IAPS as “B,” so interest accrued only when payments
           were made more than 30 days after receipt, regardless of the payment due date.
           Because DFAS Network entered a payment due date that was earlier than the
           required contractual due date of 30 days while still ensuring that interest was not
           paid until the 31st day, DFAS Dayton Network circumvented the Act’s cash
           management requirement which states that interest begins to accrue on the day
           after the payment due date.

           Neither the IAPS Guide nor the Vendor Payment Desktop Guide contained any
           guidance on how to determine the proper payment due date. The IAPS Guide
           only states that the MAX-PAY-DAYS field needs to be entered with the number
           of days to pay. However, it does not provide detailed guidance to the technicians
           on where to look in the contract to determine what the payment due date should
           be. Detailed written guidance will ensure that the proper payment date is selected
           based on the contract. An incorrect payment due date could result in either
           interest lost to the Government or an underpayment of interest.

           DFAS Dayton Network also did not have adequate written guidance or policy to
           correctly determine the Prompt Payment Indicator. Specifically, the Vendor
           Payment Desktop Guide had no guidance on entering the Prompt Payment Code
           and the IAPS Guide did not include a description of code B or how to determine
           what code should be used. DFAS Denver Instruction 7077.7-M states that
           Prompt Payment Indicator code B should be entered for bank payments.
           However, none of the sample items selected represented bank payments. A few
           DFAS Dayton Network technicians stated that their understanding was that code
           B should be entered when the payment terms were less than 30 days to allow for
           the earlier payment, but to prevent interest from accruing until the 30th day.

           The Vendor Payment Desktop Guide and the IAPS Guide need to be updated to
           allow only the use of code B for bank payments, as the Act does not permit two
           “due dates”—one for payment and one for calculating interest. By using two due
           dates, DFAS Dayton Network is circumventing one of the two parts of the Act
           (early payment or interest calculation).

                  Subject to the Act. There were 15 sample invoices that DFAS Dayton
           Network had coded as exempt from the Act by entering an “E” in the Prompt
           Payment Indicator code in IAPS. 2 However, the only invoices exempt from the
           Act are contract financing payments, payments for emergencies, utility payments,
           and commodity credit corporation payments. None of the 15 sample invoices fit
           into any of these categories. One sample invoice was coded as exempt from the
           Act, but when the contractor requested interest payment for the invoice that was
           over 100 days late, DFAS Dayton Network paid the interest. An invoice
           incorrectly coded as exempt could result in an underpayment of interest to the
           contractor.

2
    Two of these sample payments also had incorrect payment terms entered into IAPS.



                                                     5
           DFAS Dayton Network did not have adequate written guidance or policy on
           correctly determining the Prompt Payment Indicator. Specifically, the Vendor
           Payment Desktop Guide had no guidance on entering the Prompt Payment Code
           and the IAPS Guide only stated that “E” meant that the payment is exempt from
           the Act provision. There was no detailed guidance for the technicians to
           determine if a contract is exempt from the Prompt Payment Act. Additional
           detailed guidance is needed to ensure that only those invoices exempt from the
           Act are coded as such.

           Determination of the Date of the Proper Invoice. DFAS Dayton Network
           entered 33 of the 75 sample invoices incorrectly in IAPS. The Act states that the
           payment terms start on the day the Government receives a proper invoice. It
           further defines that a proper invoice is received on the later of (1) the date the
           designated Government office receives a proper invoice or (2) the date the
           designated Government office accepts the goods or service (acceptance date).
           However, if the designated receiving agency did not annotate the invoice with the
           date of receipt at the time of actual receipt, the date the proper invoice is received
           is the date placed on the invoice by the contractor, regardless of the acceptance
           date. 3

           The technicians were required to enter three dates from the invoice into the IAPS
           system: the actual invoice receipt date, the invoice preparation date, and the
           acceptance date. IAPS then automatically selected the later of the invoice receipt
           date and the acceptance date to calculate a payment due date.

                   Selection of the Actual Invoice Receipt Date. DFAS Dayton Network
           selected an incorrect actual invoice receipt date on 18 of the 33 invoices. The
           5 Code of Federal Regulations (CFR) 1315.4 states:

                •   For invoices that contractors mail, the actual invoice receipt date is the
                    date a proper invoice is actually received by the designated agency office.
                    It further requires that the agency annotate the invoice with date of receipt
                    at the time of receipt (date stamp).

                •   For invoices electronically transmitted, the invoice receipt date is the date
                    a readable transmission is received by the designated agency office, or the
                    next business day if received after normal working hours.

           The Vendor Payment Desktop Guide states that the date stamp should clearly
           identify the designated receiving office. The IAPS Manual directs the technicians
           to enter the invoice preparation date in the invoice receipt date field in IAPS if
           there is no acceptable date stamp.

           For example, if the contractor submitted an invoice dated December 1, 2005, and
           the designated receiving office properly annotated that they received the invoice

3
    For the remainder of this report, the term “Actual Invoice Receipt Date” will refer to the date that the
    designated Government agency physically receives the invoice. “Invoice Preparation Date” will refer to
    the date the contractor places on the invoice. “Acceptance Date” will refer to the date the designated
    agency receives the goods. “Proper Invoice Receipt Date” will refer to the date that is used to calculate
    the payment due date.



                                                       6
           on December 15, 2005, the invoice receipt date entered in IAPS should be
           December 15, 2005. However, if the designated receiving office did not annotate
           when they received the invoice, the invoice receipt date entered in IAPS should
           be December 1, 2005.

           For 6 of the 18 invoices with receipt date errors, DFAS Dayton Network entered
           an actual invoice receipt date that did not identify the receiving office, as required
           by the DFAS Vendor Pay Desktop Guide. If the receiving office is not identified,
           DFAS Dayton Network must use the invoice preparation date. For another three
           invoices, DFAS Dayton Network selected the date it received the invoice, but the
           contract required another Government agency to receive the invoice and that date
           should have been used. For the remaining nine invoices, DFAS Dayton Network
           used the invoice preparation date when the invoice was date stamped, or used the
           incorrect date stamp when another agency was the designated receiving official.
           An incorrect invoice receipt date could result in either an early payment to the
           contractor (and subsequent interest lost to the Government) or an underpayment
           of interest to the contractor.

           The IAPS Guide and the Vendor Payment Desktop Guide were both accurate
           when discussing the invoice receipt date that the technicians should enter into
           IAPS. However, additional clarification could help in some places where the
           guidance was vague as to whether the contract should be reviewed to determine
           the designated receiving office. DFAS Limestone has developed a “Pert Data
           Sheet” in which employees enter, among other things, the designated receiving
           office, and where to easily find that information in the contract or contract
           modification. This practice would be an efficient, effective way for all IAPS
           technicians and certifying officers to help determine if the correct invoice receipt
           date was used, along with additional training for the technicians and the certifying
           officers.

                   Selection of the Acceptance Date. DFAS Dayton Network entered an
           incorrect acceptance date on 20 of the 33 sample invoices. 4 The Act and
           5 CFR 1315.4 state that acceptance is the 7th day after the date on which the
           property is actually delivered or performance of the services is actually completed
           (constructive acceptance). However, if the agency has actually accepted the
           property or services before the 7th day, the actual acceptance date must substitute
           for the 7th day after the delivery date.

           For example, if the contractor delivered the goods on March 1, 2006, the agency
           accepted the goods on March 15, 2006, and constructive acceptance occurred on
           March 8, 2006, then the constructive acceptance date would be used as the
           acceptance date. However, if the agency accepted the goods on March 3, 2006,
           (prior to the constructive acceptance), then the March 3, 2006, date would be used
           as the acceptance date.

           DFAS Dayton Network personnel did not properly select the actual acceptance
           date on four invoices and instead selected either the constructive acceptance date,
           date of delivery, or invoice receipt date. For another three invoices, DFAS
           Dayton Network either did not properly select the constructive acceptance date
4
    Five of these invoices also had an incorrect actual invoice receipt date selected.



                                                         7
           and, instead, incorrectly selected either the invoice preparation date or the date of
           delivery, or DFAS Dayton Network selected a date that was not found in
           supporting documentation.

           The 5 CFR 1315.14 states that for construction contracts, interest will begin to
           accrue 15 days after receipt of a payment request by the designated agency office.
           However, for six invoices, DFAS Dayton Network entered an acceptance date
           later than the invoice receipt date, which would result in a potential underpayment
           of interest.

           For seven invoices, which did not require proof of acceptance, DFAS Dayton
           Network also did not correctly enter the invoice receipt date as the acceptance
           date. The contracting officers for these invoices permitted the contractors to be
           paid from the invoices without obtaining acceptance from the Government.
           Therefore, the acceptance date should have been the invoice receipt date.

           The IAPS Guide provides guidance on entering the correct acceptance date. The
           IAPS Guide states that the earlier of constructive or actual acceptance is to be
           used except for construction contracts and direct submission invoices. It further
           states that the technicians should enter the actual invoice receipt date as
           acceptance date for construction contracts. However, while the IAPS Guide
           states that acceptance is not constructed for direct submission invoices, it does not
           specifically state that the actual invoice receipt date should be entered as the
           acceptance date. In addition, the Vendor Payment Desktop Guide does not
           provide detailed guidance on entering the proper acceptance date. Additional
           policy and training for technicians and certifying officers will help ensure that the
           proper acceptance date is selected.

                   Selection of the Proper Invoice Receipt Date. DFAS Dayton Network
           did not select the invoice preparation date as the proper invoice receipt date as
           required by the Act in six sample invoices. 5 The Act states that when the
           designated Government agency does not date stamp the invoice, then the invoice
           preparation date becomes the proper invoice receipt date. For the six invoices
           where the invoice preparation date should have been used, DFAS Dayton
           Network used various other dates, such as an improper date stamp or the
           acceptance date.

           This occurred because the DFAS Dayton Network and IAPS did not have
           adequate controls to ensure that the proper invoice receipt date was selected when
           calculating the payment due date. Specifically, IAPS is designed to select the
           later of the Actual Invoice Received field and the Acceptance field. The DFAS
           Dayton Network training guidance directs technicians to enter the invoice
           preparation date in the Invoice Receipt Date field when the invoice is not properly
           date stamped, but does not direct the technicians to also enter the invoice
           preparation date in the Acceptance field when the designated receiving agency
           does not date stamp the invoice. Therefore, if the acceptance date is later than the
           invoice preparation date, IAPS will incorrectly select the acceptance date as the
           proper invoice date, which could result in an underpayment of interest to the
           contractor.
5
    The six invoices also had either actual invoice receipt errors or acceptance date errors.



                                                         8
Additional guidance should be provided to DFAS Dayton Network technicians to
ensure compliance with the Act provision (31 U.S.C. 3901(a)(4)(B)) that requires
the proper invoice receipt date be the invoice preparation date when the
designated Government agency does not date stamp the invoice. DFAS Dayton
Network needs to instruct its technicians to enter the invoice preparation date in
both the Actual Invoice Receipt field and the Acceptance Date field when there is
no proper date stamp on the invoice.

Calculation of Improper Invoices. For 18 invoices, DFAS Dayton Network
personnel returned an improper invoice outside of the 7-day period allowable by
the Act. The DFAS Dayton Network did not adjust the payment due date for any
of the 18 invoices.

The Act states:
       When an invoice is determined to be improper, the agency shall return
       the invoice. . . no later than 7 days after receipt… When an agency fails
       to make notification of an improper invoice within seven days. . . the
       number of days allowed for payment of the corrected proper invoice
       will be reduced by the number of days between the seventh day. . . and
       the day notification was transmitted to the vendor. Calculation of
       interest penalties, if any, will be based on an adjusted due date
       reflecting the reduced number of days allowable for payment.

For example, if an improper invoice was received on November 1, 2005, and
returned to the contractor on November 15, 2005, DFAS Dayton Network
personnel should reduce the payment due date by 8 days (15 days to process the
invoice minus the 7 days allowable by the Act.) If DFAS Dayton Network
personnel do not factor in improper payments in the due date, potentially the
vendor will be underpaid interest due under the Act.

The Vendor Pay Desktop Guide states that improper invoices should be returned
within 7 days, but does not state what DFAS Dayton Network technicians should
do if they do not return the invoice within 7 days. The IAPS Guide states that if
DFAS Dayton Network personnel do not return an invoice within 7 days, the
payment due date is adjusted to compensate for the additional days once the
correct invoice is returned. However, it does not provide guidance on how to
adjust the due date in IAPS or how to determine if there was a previously
submitted improper invoice.

Controls Over the Return of Improper Invoices. For 37 sample invoices,
DFAS Dayton Network personnel had not accurately and consistently coded the
improper invoices in EDM. The IAPS Guide states that DFAS Dayton Network
return invoices containing improper information or missing information to the
vendor by the most efficient method as required by the Act. DFAS Dayton
Network personnel should ensure all deficiencies are annotated before returning
the document. In addition, DFAS Dayton Network should maintain a log to
identify the documents returned and the following information on returned
invoices: invoice number, vendor name, contract number, reason for return, date
received in the designated billing office, and date returned. The Vendor Payment
Desktop Guide and IAPS Guide require a letter annotating the deficiencies be sent


                                          9
to the contractor with the improper invoice, and include examples of the form
letter.

However, DFAS Dayton Network personnel did not keep a log of this
information. As a result, the only way to determine if an invoice was previously
returned to the contractor was to review all documents in EDM for that particular
contract. In addition, a lack of controls existed over the method to annotate and
return improper invoices in EDM.

For example, DFAS Dayton Network personnel stated that they would return the
invoice to the Government official if they received the invoice from the
Government official. However, the DFAS Dayton Network returned the invoice
to that official without tracking the number of days the Government official took
to return the invoice to the contractor. The Act is clear that the Government must
reduce the payment due date by the number of days over seven that it takes to
return the improper invoice to the vendor. To comply with this requirement,
DFAS Dayton Network must track the total number of days it takes to return the
improper invoice to the vendor. However, DFAS Dayton Network personnel
returned improper invoices to an inappropriate official, such as the buying
activity, in 9 of the 37 improper invoices sampled and only tracked the number of
days it took to return the improper invoice to the buying activity. DFAS Dayton
Network personnel should have returned the improper invoice to the contractor
instead as required by the Act.

Controls over coding improper invoices needed improvement. For example,
DFAS Dayton Network personnel did not properly code all returned invoices as
“RTV” in EDM. Instead, DFAS Dayton Network coded some as type invoice or
notes (“IN,” “IN_RR,” or “LOG”). In 18 of the 37 improper invoices, DFAS
Dayton Network personnel coded the improper invoices as all three of these types
of documents. The lack of consistency increases the risk that DFAS Dayton
Network personnel will not properly identify an improper invoice and will
improperly calculate the due date.

DFAS Dayton Network personnel coded 4 of 37 invoices as “RTV,” although the
invoices appear to have been paid and never sent back to the contractor for
correction. In addition, some of the “RTV” sample invoices were sent back to the
designated Government office for payment instructions. The implementing
guidance for the Act does not cite a lack of payment instruction as criteria for
making an invoice improper.

Many of the hardcopy invoices that were returned only had typed wording on the
face of the invoice that it was sent back. In some instances, DFAS Dayton
Network personnel did not enter a date or reason why the invoice was returned.
Without this information on hardcopy invoices, DFAS Dayton Network
technicians will not be able to determine how to adjust the due date. The Vendor
Pay Desktop Guide requires a form letter to be mailed to the contractor indicating
the reason for return. DFAS Dayton Network personnel should ensure that these
letters are sent and keep a record of the supporting documentation.

DFAS Limestone Process. DFAS Limestone personnel developed a process
outside of IAPS to improve the controls over improper invoices which includes


                                    10
           maintaining a database. The database includes invoice receipt date (as opposed to
           the scanned date maintained in the EDM records) and returned date. A DFAS
           Limestone supervisor stated that they also prepare a letter for the contractor
           informing them of the reason for the return, which is date stamped, mailed to the
           contractor, and then scanned into EDM. The designated Government office is
           also carbon copied on the letter if the invoice originally came from the
           Government official. Limestone then performs a reconciliation of this database
           with invoices that have been paid and checks to see if the technicians have
           properly adjusted the due date for the improper invoices over 7 days. While we
           did not audit the entire Limestone process, we noted that they have developed an
           internal database that tracks all invoices that have been returned.


Effect of Noncompliance
           For the 75 sample invoices reviewed, DFAS Dayton Network personnel did not
           use the proper payment information on 61 invoices. As a result, DFAS Dayton
           Network made 42 payments that did not comply with either the cash management
           or interest penalty requirements of the Act. The noncompliance resulted in a total
           of $91,672.94 in interest errors.

           The interest errors resulted when DFAS Dayton Network personnel made an early
           payment or they overpaid or underpaid interest due to contractors. Specifically,
           the DFAS Dayton Network made 16 payments earlier than allowable by the Act,
           resulting in $18,759.54 in lost interest savings. For the remaining 26 payments
           reviewed, the DFAS Dayton Network personnel underpaid interest to the
           contractors totaling $72,159.78 (67 percent of the total interest due) and overpaid
           interest to the contractors totaling $753.62 (2 percent). 6

           As a result of the lack of adequate controls, there is a high risk that DFAS
           Columbus and Limestone will continue to significantly underpay and overpay
           interest to contractors as required by the Act as they take over the payments.
           Also, DFAS Columbus and Limestone may continue to violate the cash
           management requirement of the Act by paying invoices earlier than 7 days prior
           to the payment due date, which will results in interest lost to the Government.


Recommendations, Management Comments, and Audit
  Response
           1. We recommend that the Director, Defense Finance and Accounting
           Service Denver update the Vendor Payment Desktop Guide and the Director,
           Defense Finance and Accounting Service Columbus update the Integrated
           Accounts Payable System Guide to include detailed guidance to ensure
           compliance with the Prompt Payment Act. Specifically:


6
    The judgmental percentages do not project to the population.



                                                      11
       a. Provide specific instructions on how to determine the proper
payment terms, including the payment due date (that is, standard 30-day
date or date specified in the body of the contract), and how to select the
proper Prompt Payment Indicator.

Management Comments. The Director, Corporate Reporting Standards and
Compliance, DFAS Indianapolis, concurred with the recommendation and stated
that the DFAS Columbus training group wrote an IAPS Student Guide in March
2006 that replaced the outdated IAPS training course previously taught by
Science Application International Corporation. He stated that the Student Guide
replaced the Vendor Payment Desktop Guide and will be used at all paying
offices. Further, DFAS Indianapolis stated that the Student Guide provides
details on how to determine the payment terms and how to select the proper
prompt payment indicator. DFAS Columbus planned to rewrite the Student
Guide to incorporate new IAPS Database Expansion and Restructure release
changes. DFAS Columbus planned to ensure the updated guide is available to all
paying offices that process IAPS payments.

Audit Response. Management’s comments were partially responsive. The
Student Guide provided instructions for selecting an invoice receipt date and
determining the acceptance date. However, the IAPS system automatically
calculates the payment due dates based on the dates entered in the system, and the
instructions did not address how to adjust the IAPS calculated due date when
needed. The Student Guide does not provide instructions for what documents to
view to determine the proper payment terms or how to update the data entered in
IAPS. The Student Guide provides a description of the prompt payment indicator
codes, but it does not provide instructions for how to select the proper code.
Therefore, we request that DFAS Indianapolis provide additional comments
outlining actions that will ensure that the Student Guide provides adequate
instructions for determining the proper payment terms and prompt payment
indicator code so that Vendor Pay systems calculate the payment due date
correctly.

       b. Provide specific instructions on how to:

               1. Code returned improper invoices as “returned to vendor.”

Management Comments. The Director, Corporate Reporting Standards and
Compliance, DFAS Indianapolis, concurred with the recommendation and stated
that the Electronic Document Management and Wide Area Work Flow system
maintain information on rejected invoices. However, he stated that if DFAS
rejects an invoice it is not entered into IAPS. He also stated that DFAS instructs
users to document the reason for rejecting contractor invoices by adding notes in
EDM and Wide Area Work Flow. Further, he stated that a Standard Operating
Procedure was developed and distributed in December 2006 for DFAS Columbus
personnel. The Standard Operating Procedure provides guidance on entering
reason codes for rejected invoices and it will be reviewed for incorporation into
an updated Student Guide expected to be completed by May 31, 2007.




                                    12
               2. Determine if there was a previously submitted improper
invoice.

Management Comments. The Director, Corporate Reporting Standards and
Compliance, DFAS Indianapolis, concurred with the recommendation and
expects that the new Student Guide will improve the processing of rejected
improper invoices.

              3. Adjust the payment due date for any days past the 7 days
allowable to return the improper invoice.

Management Comments. The Director, Corporate Reporting Standards and
Compliance, DFAS Indianapolis, concurred with the recommendation and stated
that the current Student Guide provides specific instructions on adjusting the
payment due date for the number of days past 7 used to return an improper
invoice. He also stated that DFAS Columbus planned to rewrite the Student
Guide to incorporate the IAPS Database Expansion and Restructure release
changes and will ensure the updated guide is available to all paying offices that
process IAPS payments.

Audit Response. Management’s comments were partially responsive. The
Student Guide provides an example for adjusting the payment due date for an
improper invoice that is not returned within the 7-day allowable window.
However, the IAPS system automatically calculates the payment due date based
on the dates entered in the system. The Student Guide does not provide
instructions for updating the dates in IAPS to ensure that the time frame for
making the payment reflects the number of days past the 7 in which DFAS is
allowed to return the improper invoice. Additionally, the Student Guide instructs
technicians to return improper invoices to either the vendor or the DoD
organization, as appropriate. The Prompt Payment Act states that improper
invoices should be returned to the vendor and does not include any provisions to
return improper invoices to the DoD organization. Therefore, we request that
DFAS Indianapolis provide additional comments outlining actions that will
ensure that the Student Guide provides adequate instructions for adjusting the
payment due date for any days past 7 used to return the improper invoice. The
comments should also included proposed actions to instruct IAPS technicians to
only return improper invoices to the vendor.

       c. Provide detailed instructions to only use the Prompt Payment
Indicator code B for bank payment contracts.

Management Comments. The Director, Corporate Reporting Standards and
Compliance, DFAS Indianapolis, concurred with the recommendation and stated
that the current Student Guide instructs the paying offices that process IAPS
transactions to use the Prompt Payment Indicator code B only for bank payment
contracts. He also stated that DFAS Columbus will rewrite the Student Guide to
incorporate the IAPS Database Expansion and Restructure release changes and
will ensure the updated guide is available to all paying offices that process IAPS
payments.


                                    13
Audit Response. Management’s comments were partially responsive. The
Student Guide explains that Prompt Payment Indicator code B means that interest
does not accrue until after 30 days. The Student Guide also provides examples of
when the code is used. However, it does not specifically state that the code
should only be used for bank payment contracts. Therefore, we request that
DFAS Indianapolis provide additional comments outlining actions that will
ensure that the Student Guide provides adequate instructions for technicians to
enter Prompt Payment Indicator code B only for bank payment contracts.

2. We recommend that the Director, Defense Finance and Accounting
Service Columbus provide additional training to the technicians to ensure
the Prompt Payment Act and related policies and procedures are followed.
Specifically, the Defense Finance and Accounting Service should provide
training to the technicians and certifying officers related to:

       a. Determining the proper payment terms, including the payment due
date (that is, standard 30-day date or date specified in the body of the
contract), and how to select the proper Prompt Payment Indicator.

       b. Selecting proper invoice receipt and acceptance dates.

       c. Returning invoices to the contractors by mailing a letter indicating
the reason for returning an improper invoice and keeping a record of
supporting documentation.

Management Comments. The Director, Corporate Reporting Standards and
Compliance, DFAS Indianapolis, concurred with the recommendation and stated
that the DFAS Columbus training group wrote an IAPS Student Guide in March
2006 to replace an outdated IAPS training course previously taught by Science
Application International Corporation. He also stated that the Student Guide
provides instructions on how to determine the proper payment terms, select the
proper invoice receipt and acceptance dates, and return invoices. Further, he
stated that classes are provided to all incoming personnel and personnel
recommended for training by management. He added that DFAS Columbus will
rewrite the Student Guide to incorporate the IAPS Database Expansion and
Restructure release changes and will ensure the updated guide is available to all
paying offices that process IAPS payments.

Audit Response. Management’s comments were partially responsive. Although
the Student Guide provides instructions for selecting the invoice receipt and
acceptance dates, the Student Guide is silent on the documents to view to
determine the proper payment terms. Therefore, we request that DFAS
Indianapolis provide additional comments outlining actions on providing training
to IAPS technicians and certifying officers related to determining the proper
payment terms.




                                    14
Appendix A. Scope and Methodology
   We requested all invoices that were subject to the Act paid in IAPS from April 1,
   2005, through March 31, 2006. We received a database from DFAS Denver that
   contained payments records with the contract number, invoice number, invoice
   received date, payment date, contractor name, and payment amount. DFAS
   Denver also provided data fields indicating whether they earned a discount or
   paid interest on the invoice. We then selected a judgmental sample of 75
   payments for testing to ensure compliance with the Act. In selecting the sample,
   we selected high dollar invoices and ensured an even distribution of payments
   that appeared early, on time, and late based on the IAPS invoice receipt and
   payment dates. We also ensured that 30 invoices that DFAS Dayton Network
   included on the “RTV” spreadsheet of invoices returned to the buying activity or
   contractor as improper were included in our 75 sample invoices. According to
   DFAS these payments were made through the DFAS Dayton Network (including
   Orlando, Omaha, San Bernardino and Dayton). DFAS stated that there was no
   way to identify which location had processed the invoice.

   For each sample payment, we reviewed scanned hard copy documents and IAPS
   data to determine whether the invoice was processed in accordance with the Act.
   Specifically, we verified that the actual invoice receipt date, acceptance date,
   payment terms (that is, the standard 30-day time period or other as specified by
   the contract and the Prompt Payment Indicator), proper invoice receipt date, and
   payment due date were correct. We then determined whether the invoices were
   paid early, on time, or late.

   For those invoices that were paid later than the payment due date, we calculated
   the amount of interest due by multiplying the disbursement amount by the number
   of days late and the appropriate daily interest rate. We then compared our
   calculated interest and the actual interest paid to determine if DFAS Dayton
   Network overpaid, underpaid, or correctly paid the interest to the contractor. For
   the invoices that were paid earlier than 7 days prior to the payment due date
   without proper authority (that is, a cash management waiver), we calculated the
   amount of interest lost to the Government by multiplying the disbursement
   amount by the number of days early and the appropriate daily interest rate.
   We performed this audit from March 2006 through October 2006 in accordance
   with generally accepted government auditing standards.

   We relied on DFAS Denver to provide all payments that were subject to the Act
   within the specified time frame. We used a judgmental sample to determine if the
   information provided was valid or accurate. However, we did not verify that all
   payments were provided.

   Use of Computer-Processed Data. We used computer-processed data obtained
   from the IAPS system to determine the universe of contractor invoices and to
   select a judgmental sample of invoices for testing. We did not perform a formal
   reliability assessment of the computer-processed data. However, we examined
   additional supporting documents from DFAS Dayton Network to verify the
   accuracy of the IAPS data provided and that the payment was made. We did not


                                       15
    rely on IAPS system controls to perform this audit. Our results were not
    negatively affected by not performing a formal reliability assessment of IAPS.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the financial management high-risk area.


Prior Coverage
    No prior coverage has been conducted on processing IAPS contractor payment in
    accordance with the Act during the last 5 years.




                                        16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          17
Defense Finance and Accounting Service
Indianapolis Comments




                      19
20
21
22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
James L. Kornides
Mark Starinsky
Lisa S. Sherck
Amber M. B. White
Pat A. Papas
Erin S. Hart
Ellen E. Kleiman
